No.
IN THE

Supreme Court of the United States
_________
JOHN MYERS,
Petitioner,
v.
RON NEAL,
Respondent.

CERTIFICATE OF SERVICE

I, Clifford W. Berlow, hereby certify that I am a member of the bar of this Court
and that I have this 12th day of February, 2021, caused three copies of the foregoing
Petition For A Writ Of Certiorari to be served via electronic mail and UPS overnight
delivery, postage prepaid on:
Jesse R. Drum
Office of the Attorney General
Indiana Government Center South
302 West Washington Street,
Fifth Floor
Indianapolis, IN 46204-2770
Jesse.Drum@atg.in.gov
Counsel for Respondent

/s/ Clifford W. Berlow
Clifford W. Berlow

